                  OFFICE OF INSPECTOR GENERAL




                                                           Catalyst for Improving the Environment


Attestation Report

    Natural Resources Defense Council
    Reported Outlays Under EPA
    Cooperative Agreements
    CX82546101, CX82675101, and
    XA83033101


    Report No. 2005-4-00120

    September 21, 2005




   This report contains findings that describe problems the Office of Inspector General (OIG) has
   identified and corrective actions the OIG recommends. The report represents the opinion of
   the OIG, and findings in this report do not necessarily represent the final EPA position. Final
   determinations on matters in this report will be made by EPA managers in accordance with
   established audit resolution procedures.
Report Contributors:	            Keith Reichard
                                 Richard Valliere
                                 Sabrina Barry
                                 Eileen Collins




Abbreviations

CFR          Code of Federal Regulations
DOI          Department of Interior
EPA          Environmental Protection Agency
OIG          Office of Inspector General
OMB          Office of Management and Budget
                                                                                                           2005-4-00120
                         U.S. Environmental Protection Agency                                         September 21, 2005
                         Office of Inspector General


                         At a Glance
                                                                           Catalyst for Improving the Environment

Why We Did This
Examination                             Natural Resources Defense Council Reported
                                        Outlays Under EPA Cooperative Agreements
We conducted this examination to
determine whether (1) the reported      CX82546101, CX82675101, and XA83033101
outlays fairly present, in all
material respects, the allowable         What We Found
costs incurred under EPA
cooperative agreements                  In our opinion, because of the effects of the questioned outlays discussed
CX82546101, CX82675101 and              below, the reported Federal outlays on the Financial Status Reports/Federal
XA83033101; and (2) the recipient
                                        Cash Transaction Reports do not present fairly, in all material respects, the
was managing its EPA cooperative
agreements in accordance with           allowable outlays incurred in accordance with the terms and conditions of the
applicable requirements.                grants and applicable EPA regulations. We questioned $1,419,548 of reported
                                        outlays because the recipient did not maintain the necessary documentation to
Background                              fully support the reported costs, as required by Federal regulations.
                                        Specifically, the recipient did not (1) obtain required Federal approval for
EPA awarded three cooperative           indirect and fringe benefit costs, and (2) perform required cost or price reviews
agreements to the recipient totaling    to support the reasonableness for contract costs.
$3,260,467. Grant CX82546101
was awarded for storm water
education, and grants CX82675101
and XA83033101 were market
transformation grants awarded to
encourage developing and                 What We Recommend
purchasing energy-efficient
products. The project period for        We recommend that EPA (1) obtain sufficient documentation to support the
the storm water education grant         outlays of $1,419,548 in accordance with EPA regulations or disallow the costs
was from December 15, 1996, to          from Federal grant participation, and (2) negotiate fringe benefit and indirect
October 31, 2001. The project           cost rates in accordance with Office of Management and Budget Circular
periods for the market                  A-122.
transformation grants ran
consecutively from September 1,
1998, to December 31, 2005.             The recipient disagrees with the questioned outlays, but plans to submit for
                                        negotiation the required fringe benefit and indirect cost rate proposals.
For further information,
contact our Office of
Congressional and Public Liaison
at (202) 566-2391.

To view the full report, click on the
following link:

www.epa.gov/oig/reports/2005/
20050921-2005-4-00120.pdf
                 UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              WASHINGTON, D.C. 20460


                                                                                OFFICE OF 

                                                                           INSPECTOR GENERAL




                                       September 21, 2005

MEMORANDUM

SUBJECT:       Natural Resources Defense Council Reported Outlays Under EPA Cooperative
               Agreements CX82546101, CX82675101, and XA83033101
               Report No. 2005-4-00120

FROM:          Michael A. Rickey /s/ Michael A. Rickey
               Director, Assistance Agreement Audits

TO:            Richard Kuhlman
               Director, Grants Administration Division


This is the final report to express an opinion on the outlays reported through June 30, 2004, by
the Natural Resources Defense Council under cooperative agreements CX82546101,
CX82675101, and XA83033101. Our opinion does not extend to the recipient’s financial
statements taken as a whole, nor does it extend to the quality or results of the funded research. In
addition, our conclusions are qualified subject to EPA’s acceptance of the work upon completion
of the grant.

We have questioned over $1.4 million because the recipient did not have sufficient
documentation to support the allocation of these costs to the EPA grant in accordance with the
terms and conditions of the grant. The report represents the opinion of the Office of Inspector
General (OIG), and the findings contained in this report do not necessarily represent the final
EPA position. The OIG has no objection to the release of this report.

On July 22, 2005, we issued a draft report to the recipient for comment. The recipient did not
agree with the reported findings. We have included the recipient’s response to the draft report in
Appendix B (we did not include the recipient’s attachments but they are available upon request).
The response is also summarized after each finding with our comments.
Action Required

In accordance with EPA Manual 2750, the action official is required to provide this office with a
proposed management decision within 120 days of the date of this transmittal memorandum.
The proposed management decision must address each finding and recommendation. Where you
disagree with a finding or recommendation, please provide alternative actions and support or
precedence for your position

If you have questions concerning this report, please contact Keith Reichard, at (312) 886-3045.
                                    Table of Contents 

At a Glance 


Background .............................................................................................................     1


Independent Auditor’s Report ................................................................................                3         


Summary Results of Examination .........................................................................                     5         


Schedule 1 - Reported Outlays and Results of Examination for 

            Cooperative Agreement CX82546101...............................................                                  6


Schedule 2 - Reported Outlays and Results of Examination for 

            Cooperative Agreement CX82675101 ..............................................                                 10 


Schedule 3 - Reported Outlays and Results of Examination for 

            Cooperative Agreement XA83033101 ..............................................                                 12 


Additional Issue - Recipient’s Personnel Activity Reports 

                   Did Not Comply with OMB Circular A-122 ...........................                                       15 




Appendices
    A       Scope and Methodology ...........................................................................               16     


    B       Recipient Response and OIG Comments ................................................                            17     


    C       Distribution.................................................................................................   30     





                                                               i
                                      Background
The U.S. Environmental Protection Agency (EPA) awarded three cooperative agreements to the
Natural Resources Defense Council (recipient) totaling $3,260,467. The recipient was formed in
1970, as a Section 501(c) (3) organization (per Internal Revenue Code requirements), and has
offices in New York City, Washington, DC, San Francisco, and Los Angeles. The following
table provides some basic information about the authorized project periods and funds awarded
under each of the three agreements:

   Cooperative        Award       EPA        Recipient’s      Total
   Agreement           Date      Share         Share          Costs           Project Period
    CX82546101       04/25/97   $ 857,112        $45,111     $ 902,223      12/15/96 - 10/31/01
    CX82675101       08/24/98    1,204,362             0      1,204,362     09/01/98 - 12/31/01
    XA83033101       08/08/02    1,198,993             0      1,198,993     01/01/02 - 12/31/05
  Total                         $3,260,467       $45,111     $3,305,578


Cooperative Agreement CX82546101: This agreement was for the recipient to provide
educational services about the causes, impacts, and possible solutions to wet weather pollution.
The scope of work includes three specific tasks: (1) to gather information on the impact of storm
water, particularly on recreational water use, and to disseminate this information; (2) to conduct
a survey to determine what information citizens would find helpful, what they already know,
what information they lack, and what aspects of storm water are most important to them; and (3)
to focus on one area (EPA’s Long Island Sound pilot project) and develop ways to more
effectively alert the public and local government to the issues surrounding wet weather pollution
and what can be done about it. The recipient was required to provide a 5 percent match of
$45,111.

Cooperative Agreement CX82675101: This agreement was for the recipient to analyze, support,
and implement projects that encourage the development and purchase of energy-efficient
equipment, primarily in the California market.

Cooperative Agreement XA83033101: This agreement was for the recipient to work within the
energy-efficiency and manufacturing community towards long-term market transformation of
energy efficient technologies and practices.

To assist the reader in obtaining an understanding of the report, key terms are defined below:

          Reported Outlays: 	         Program expenses or disbursements reported by the
                                      recipient on the Federal Cash Transactions Reports or the
                                      Final Financial Status Reports




                                                1

Questioned Outlays: 	   Outlays that are (1) contrary to a provision of a law,
                        regulation, agreement, or other documents governing the
                        expenditures of funds, or (2) not supported by adequate
                        documentation.




                                  2

                       Independent Auditor’s Report
We have examined the total outlays reported by the Natural Resources Defense Council
(recipient) under the EPA cooperative agreements, as shown below:

                                        Financial Status Report/Federal Cash
                                                Transactions Report
                                                                       Federal Share
               Cooperative       Date        Period     Reported        Of Outlays
               Agreement       Submitted     Ending      Outlays         Reported
               CX82546101       01/25/02     10/31/01     $904,577          $857,112 *
               CX82675101       03/21/02     12/31/01    1,196,740         1,196,740 *
               XA83033101       07/14/04     06/30/04      903,280           903,280**
                  Total                                 $3,004,597        $2,957,132

               * Outlays reported on a Financial Status Report
               ** Outlays reported on a Federal Cash Transaction Report

The recipient certified that the outlays reported on the Financial Status Reports, Standard Form
269A, or the Federal Cash Transactions Reports, Standard Form 272, were correct and for the
purposes set forth in the agreements. The preparation and certification of the claims was the
responsibility of the recipient. Our responsibility is to express an opinion on the reported outlays
based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States, and the attestation standards established for the
United States by the American Institute of Certified Public Accountants. We examined, on a test
basis, evidence supporting the reported outlays, and performed such other procedures as we
considered necessary in the circumstances (see Appendix A for details). We believe that our
examination provides a reasonable basis for our opinion.

We questioned $1,419,548 of the $3,004,597 in reported outlays, because the recipient did not
maintain sufficient documentation to support the allocation of these costs to the EPA grants in
accordance with the terms and conditions of the grant.




                                                 3

In our opinion, because of the effects of the questioned outlays discussed in the preceding
paragraph, the reported Federal outlays on the Financial Status Reports/Federal Cash
Transaction Reports do not present fairly, in all material respects, the allowable outlays incurred
in accordance with the terms and conditions of the grants and applicable EPA regulations.
Details of our examination are included in the Summary Results of Examination and supporting
schedules that follows.


Keith Reichard
Office of Inspector General
U.S. Environmental Protection Agency
April 29, 2005




                                                 4

                     Summary Results of Examination
We questioned unallowable reported Federal outlays of $1,419,548 because the recipient did not
maintain the necessary documentation to fully support the reported costs, as required by Federal
regulations. The recipient did not prepare or submit its indirect cost rate proposals to EPA as
required by Office of Management and Budget (OMB) Circular A-122. Also, the recipient
procured sole-source consulting services without justification or performing a cost or pricing
review. The questioned outlays are summarized below and detailed in the supporting schedules.

                                                             Federal
              Cooperative     Reported      Questioned        Share
              Agreement        Outlays       Outlays        Questioned    Schedule
              CX82546101        $904,577       $308,848      $293,406*       1
              CX82675101        1,196,740       769,549       769,549**      2
               XA83033101        903,280        356,593       356,593**      3
             Total             $3,004,597     $1,434,990    $1,419,548


* The Federal share questioned was calculated by applying the 95 percent Federal share to the
questioned outlays.

** The Federal share was 100 percent of reported outlays.




                                               5

                              Schedule 1 

            Reported Outlays and Results of Examination for 

                 Cooperative Agreement CX82546101 


                                         Reported      Questioned
                   Description            Outlays       Outlays         Note
              Salary                       $194,837             $0        1
              Fringe Benefits                45,413        45,413         2
              Travel                         21,303              0
              Contractual                   393,721       102,705         3
              Other                          86,220              0
              Indirect Costs                164,834       164,834         4
              Subtotal                     $906,328      $312,952
              Less: Unexplained
                                             (1,751)       (1,751)        5
              Adjustment
              Reported Outlays             $904,577      $311,201
              Less: Outlays in
                                                           (2,353)        6
              Excess Grant Ceiling
              Total                                      $308,848


Note 1: 	   Refer to our comments on page 15 entitled Recipient’s Personnel Activity Reports
            Did Not Comply With OMB Circular A-122.

Note 2: 	   We questioned fringe benefit costs because the recipient did not submit its fringe
            benefit cost rate proposals for fiscal years 1997 through 2002 to EPA supporting
            the rates used in the calculation of the reported outlays as required by OMB
            Circular A-122. The provisions of OMB Circular A-122, Attachment A,
            subparagraph E.2. states:

                      (b) A non-profit organization which has not previously
                      established an indirect cost rate with a Federal agency
                      shall submit its initial indirect cost proposal immediately
                      after the organization is advised that an award will be
                      made and, in no event, later than three months after the
                      effective date of the award… (c) Organizations that have
                      previously established indirect cost rates must submit a
                      new indirect cost proposal to the cognizant agency within
                      six months after the close of each fiscal year.

            The recipient did not consider fringe benefits to be indirect costs, and thus did not
            believe that it was required to submit the fringe rates to EPA.




                                                6

                  We disagree with the recipient that the fringe benefits were not indirect costs.
                  According to OMB Circular A-122, costs charged to an award must be either
                  direct or allocated indirect costs. The recipient allocated fringe benefits costs to
                  the EPA grant(s) by applying fringe benefit rates1 to direct labor. Thus, the fringe
                  benefits are allocated indirect costs that must be authorized by negotiated rate
                  agreements. Accordingly, the recipient was required to prepare and submit the
                  fringe benefit rate proposals to EPA in accordance with the requirements of OMB
                  Circular A-122, Attachment A, subparagraph E.2. Since the recipient did not
                  maintain sufficient records to support the outlays for labor and fringe benefits, the
                  reported outlays are unallowable for Federal grant participation.

                  In addition, in our draft report, we commented that the recipient may have
                  recovered vacation costs twice: once through the salaries claimed under the EPA
                  agreements, and once through the fringe benefit rates. In response to the draft
                  report, the recipient responded that the actual costs for vacations, holiday, and
                  sick leave are treated as direct and not indirect costs, and did not agree that the net
                  accrued vacation expenses represented a duplication of costs. Nevertheless the
                  recipient informed its Independent Auditor that it will eliminate the accrued
                  vacation expense from its actual fringe benefit rate calculations. We agree with
                  eliminating vacation expenses from the fringe benefits.

Note 3: 	         We questioned reported contractual outlays of $102,705, detailed as follows:

                                                                Questioned
                                        Description              Outlays          Note
                                Fringe Benefits                       $28,697       a
                                Unsupported                            74,008       b
                                Total                               $102,705


                  a. 	     The questioned outlays represent fringe benefits on employee salaries
                           which were reported as contractual services. The recipient reported short-
                           term and part-time employee as contractual because some of these
                           employees did not receive fringe benefits. We have questioned these
                           outlays based on the same rationale discussed in Note 2.

                  b. 	     We questioned labor costs of $74,008 because the recipient could not
                           provide any labor activity reports to support these outlays, as required by
                           OMB Circular A-122, Attachment B, subparagraph 7.m.

Note 4: 	         The indirect costs were questioned because the recipient did not submit its
                  indirect costs rate proposals for fiscal years 1997 through 2002 to EPA to obtain
                  approval for the rates used in the calculation of reported outlays as required by

1
 The fringe benefits rates for all the EPA grants ranged from 18.7 percent to 24.4 percent of total salaries for fiscal
years 1996 through 2004.


                                                           7

              OMB Circular A-122. The provisions of OMB Circular A-122, Attachment A,
              subparagraph E.2. states:

                      (b) A non-profit organization which has not previously
                      established an indirect cost rate with a Federal agency
                      shall submit its initial indirect cost proposal immediately
                      after the organization is advised that an award will be
                      made and, in no event, later than three months after the
                      effective date of the award… (c) Organizations that have
                      previously established indirect cost rates must submit a
                      new indirect cost proposal to the cognizant agency within
                      six months after the close of each fiscal year.

              The recipient did not prepare or submit its indirect cost proposal after it made
              several attempts to receive clarification on EPA’s indirect cost policy, in effect at
              the time. According to the recipient, EPA has stated numerous times, over the
              years, via telephone, that it no longer gives written confirmations of indirect cost
              rates as long the rate calculation is beneath their threshold of 35 percent, then the
              rate is acceptable. EPA also stated that the recipient can continue to use its rate
              for proposals and that it does not have to calculate a new one.

              EPA’s policy in effect at the time was not in compliance with OMB Circular
              A-122, Attachment A, subparagraph E.2. – Negotiation and Approval of Indirect
              Cost Rates. EPA’s policy has been rescinded.

Note 5: 	     The recipient was unable to explain why it reduced the reported outlays by
              $1,751.

Note 6: 	     The recipient incurred and reported outlays of $2,353 in excess of the cooperative
              agreement budget. Accordingly, we have offset the questioned outlays by the
              same amount.

Recommendation 1

We recommend that EPA:

a. 	   Obtain sufficient documentation to support the questioned outlays of $308,848 in
       accordance with EPA regulations or disallow the questioned Federal share of $293,406
       ($308,848 x 95 percent).

b. 	   Ensure that the recipient submits its fringe and indirect cost rates proposals for fiscal
       years 1997 through 2002 as required by OMB Circular A-122, and not allow any fringe
       benefits or indirect costs until the rates have been negotiated. In negotiating the rates, we
       recommend that EPA ensure that the recipient removes:




                                                 8

i.    Accrued vacation expenses from the fringe benefit pool.

ii.   Executive compensation from the indirect cost pools and reallocate the
      costs to the allocation base (see Schedule 3, Note 4 for our discussion on
      executive compensation).




                                9

                              Schedule 2 

            Reported Outlays and Results of Examination for 

                 Cooperative Agreement CX82675101 


                                       Reported     Questioned
                   Description          Outlays      Outlays          Note
              Salary                     $375,662             $0        1
              Fringe Benefits              77,422        77,422         2
              Travel                       43,302              0
              Contractual                 476,244       473,995         3
              Other                         5,978              0
              Indirect Costs              218,132       218,132         2
              Total                    $1,196,740      $769,549


Note 1: 	   Refer to our comments on page 15 entitled Recipient’s Personnel Activity Reports
            Did Not Comply With OMB Circular A-122.

Note 2: 	   We questioned reported outlays for fringe benefits and indirect costs based on the
            same rationale as discussed in Schedule 1, Notes 2 and 4.

Note 3: 	   We questioned contractual costs of $473,995 because the recipient did not
            (1) procure contractual services in accordance with Title 40 Code of Federal
            Regulations (CFR) 30.43: (2) justify the lack of competition for purchases over
            $100,000 as required by Title 40 CFR 30.46, and (3) perform the required cost or
            price analyses for the procurement of goods and services obtained under the EPA
            agreements as required by Title 40 CFR 30.45. Title 40 CFR 30.43 provides that
            all procurement transactions shall be conducted in a manner to provide, to the
            maximum extent practical, open and free competition. The recipient did not
            comply with the provisions of Title 40 CFR 30.43 in that it awarded three
            contracts to Ecos Consulting valued at $473,995 without competition, and had no
            justification to support this lack of competition. Each contract award was in
            excess of $100,000.

            For purchases over $100,000, Title 40 CFR 30.46 requires that procurement
            records and files shall include the following at a minimum: basis for contractor
            selection, justification for lack of competition when competitive bids or offers are
            not obtained, and basis for award cost or price. In response to this finding, the
            recipient indicated that Ecos Consulting possessed a unique set of qualifications
            that no other consulting firms could provide. According to the recipient, Ecos
            Consulting was to (1) explore the potential for incorporating energy savings from
            efficient lighting and appliances into various energy rating systems for new and
            remodeled homes, and (2) help develop a performance based specification for
            energy efficient screw based compact fluorescent lamps and provide


                                             10

              recommendations for improvements to the existing specifications for pin-based
              fixtures, (3) identify opportunities for bulk procurement of energy efficient
              torchieres, and (4) prepare an in depth white paper on energy efficient lighting for
              utility program implementers and policy makers. However, the recipient did not
              provide any documentation to demonstrate that no other organization was capable
              of performing this work. An undocumented belief that an organization possesses
              unique qualifications does not justify making a noncompetitive award. There may
              be other organizations unknown to the recipient that were qualified and could
              have performed the work more efficiently and effectively. At a minimum, the
              recipient should have advertised for request for proposals to verify or confirm that
              only one source was available to do the work.

              The recipient also did not perform a cost or pricing analysis of Ecos Consulting’s
              procurement as required by Title 40 CFR 30.45. Title 40 CFR 30.45 provides that
              some form of cost or price analysis shall be made and documented in the
              procurement files in connection with every procurement action. In response to
              this finding, the recipient indicated that Ecos Consulting’s rates were very
              competitive with those charged by other energy efficiency consultants.

              The recipient’s supposition that Ecos Consulting rates were competitive is both
              flawed and contrary to the requirements for cost or price analysis. The recipient
              awarded the contract to Ecos Consulting without competition. Thus, our
              assumption is none of the firms used for the comparison submitted price
              quotations. Therefore, it was not possible to compare rates. Further, the sole
              source justification stated that Ecos Consulting had unique qualifications. It
              would be inconsistent to compare the Ecos Consulting rates to consultants that did
              not have similar qualifications.

              As a result of this lack of competition and evidence of a cost or pricing analysis,
              there was no assurance that the contract costs paid under the cooperative
              agreements were fair and reasonable. Therefore, these costs are not allowable
              under Federal rules.

Recommendation 2

We recommend that EPA obtain sufficient documentation to support the questioned outlays of
$769,549 in accordance with EPA regulations or disallow the costs.




                                               11

                              Schedule 3 

            Reported Outlays and Results of Examination for 

                 Cooperative Agreement XA83033101 


                                      Reported      Questioned
                   Description         Outlays       Outlays         Note
              Salary                    $313,700             $0        1
              Fringe Benefits             68,106         68,106        2
              Travel                      27,171              0
              Contractual                331,012        131,835        3
              Other                         6,639             0
              Indirect Costs             156,652        156,652        4
              Total                     $903,280      $356,593


Note 1: 	   Refer to our comments on page 15 entitled Recipient’s Personnel Activity Reports
            Did Not Comply With OMB Circular A-122.

Note 2: 	   The recipient did not submit fringe benefit rate proposals for fiscal years 2002
            through 2004. Accordingly, we questioned reported outlays based on the same
            rationale discussed in Schedule 1, Note 2.

Note 3: 	   We questioned the reported outlays for contractual costs of $131,835. Under this
            cooperative agreement, the recipient awarded a contract to Ecos Consulting
            valued at $131,835 without competition, and had no justification to support this
            lack of competition. Additionally, the recipient did not perform a cost or price
            analysis for the procurement as required by Title 40 CFR 30.45. We have
            questioned these contract costs based on the same rationale discussed in Schedule
            2, Note 3.

            In response to this finding, the recipient indicated that Ecos Consulting possessed
            a unique set of qualifications that no other consulting firms could provide.
            According to the recipient, Ecos Consulting was to (1) conduct research on power
            supply efficiencies and the overall power supply market structure, (2) collect data
            on power consumption of computer monitors operating in various modes, (3)
            conduct outreach to key monitor manufactures to discuss the contents of a future
            performance specification for computer monitors, (4) respond to ceiling fan
            manufacturers’ inquiries regarding the test method for measuring performance of
            ceiling fans and provide initial thoughts on ways to improve existing performance
            specification, (5) perform research on the cost effectiveness and energy savings of
            early retirement programs for refrigerators and room air conditioners, and (6)
            research the energy efficiency of existing battery chargers used in consumer
            products. However, the recipient did not provide any documentation to


                                            12

            demonstrate that no other organization was capable of performing the work. An
            undocumented belief that an organization possesses unique qualifications does not
            justify making a noncompetitive award. There may be other organizations
            unknown to the recipient that were qualified and could have performed the work
            more efficiently and effectively. At a minimum, the recipient should have
            advertised for request for proposals to verify or confirm that only one source was
            available to do the work.

Note 4: 	   In the draft report, we questioned the reported outlays because the recipient did
            not submit its indirect cost rate proposals to EPA for fiscal years 2002 and 2003,
            and we could not accept the recipient’s 2004 proposed provisional rate because of
            an inadequate labor distribution system. Specifically, the recipient did not require
            its executive officers to prepare monthly personnel activity reports to support the
            distribution of their salaries to direct and indirect activities including unallowable
            direct activities such as lobbying and fundraising. Accordingly, without adequate
            supporting documentation, we have no way to verify that the executive salaries
            which were reported as indirect costs were reasonable, allowable, and allocable.

            OMB Circular A-122, Attachment B, subparagraph 7.m.(2) requires labor activity
            reports for employees whose work involves two or more functions or activities if
            a distribution of their compensation between such functions or activities is needed
            in the determination of the organization’s indirect cost rate(s). Thus, employees,
            officers included, who distribute their time to other functions such as fund raising,
            lobbying, membership activities, or other direct functions such as time charges to
            other affiliated organizations, must maintain labor activity report if the recipient
            wishes to include the labor costs as part of the indirect cost rate(s).

            In response to the draft report, the recipient agreed that it "did not require its
            executive officers to prepare monthly activity reports to support the distribution of
            their salaries to all activities, including unallowable activities such as lobbying
            and fundraising.” However, the recipient indicated that executive officers keep
            track of certain specific activities like lobbying. In addition, on an annual basis,
            NRDC allocated executive salaries to program, administrative, and fundraising
            activities.

            During our field work, we requested but the recipient did not provide us with any
            documentation to support (1) the lobbying costs which were excluded from the
            indirect expense pool, or (2) the allocation of executive salaries, to program,
            administration, and fundraising activities. Accordingly, without adequate
            supporting documentation, we have no way to verify that the executive salaries
            which were included in the indirect costs were reasonable, allowable, and
            allocable.




                                              13

                     In response to the draft report the recipient also provided us with approved
                     indirect rates for fiscal years 2003 and 20042. The rates were approved on August
                     16, 2005, subsequent to the issuance of the draft report, by the United States
                     Department of Interior, National Business Center (DOI), acting on behalf of EPA.
                     Because of our concerns related to the lack of personnel activity reports as
                     discussed above, we contacted DOI to discuss the negotiation of the final rates.
                     DOI told us that it had no knowledge of our audit or of any of the findings
                     identified in the report. Accordingly, we recommend that the approved rates be
                     rescinded, and DOI consider the findings in this report before negotiating any new
                     rates.

Recommendation 3

We recommend that EPA:

       a. 	 Obtain sufficient documentation to support the questioned outlays of $356,593 in 

            accordance with EPA regulations or disallow the costs. 


       b. 	 Ensure that the recipient submits its fringe benefit cost rates proposals for fiscal years
            2002 through 2004 as required by OMB Circular A-122, and not allow any fringe
            benefits until the rates have been negotiated. In negotiating the rates, we recommend that
            EPA ensure that the recipient removes the accrued vacation expenses from the fringe
            benefit pool.

       c. 	 Require the recipient to recalculate and resubmit its fiscal years 2003 and 2004 indirect
            cost rate proposals for renegotiation. In negotiating the rates, we recommend that EPA
            ensure that the recipient removes all indirect executive compensation from the indirect
            expense pool and reallocate the costs to the allocation base. We also recommend that
            EPA not allow any indirect costs until the rates have been negotiated.




2
    The recipient still has not submitted an indirect cost rate proposal for fiscal year 2002.


                                                              14

                                    Additional Issue

Recipient’s Personnel Activity Reports Did Not Comply With OMB
Circular A-122

The recipient’s personnel activity reports did not fully comply with the provisions of OMB
Circular A-122, Attachment B, subparagraph 7.m. Title 40 CFR 30.27 provides that non-profit
organizations shall follow the provisions of OMB Circular A-122 for determining allowable
costs. That Circular, Attachment B, subparagraphs 7.m (1) and (2), require that:

       ...the distribution of salaries and wages to awards must be
       supported by personnel activity reports....Reports reflecting the
       distribution of activity of each employee must be maintained for all
       staff members (professionals and nonprofessionals) whose
       compensation is charged, in whole or in part, directly to
       awards....Reports maintained by non-profit organizations to satisfy
       these requirements must meet the following standards:

       (b) Each report must account for the total activity for which 

       employees are compensated and which is required in fulfillment of 

       their obligations to the organization. 


The recipient’s employees did not record hours worked on their monthly activity reports.
Instead, on a monthly basis, the employees estimated the percentage of time that they worked on
EPA agreements and lobbying. These monthly activity reports did not account for the total
activity for which the employees were compensated. For instance, vacation, holiday, sick leave,
indirect activities, and other direct activities such as litigation or other non-Federal projects were
not reported on the employees’ monthly activity reports.

We did not question any of the labor outlays reported under the agreements because the
deficiency in the personnel activity reports did not cause any labor costs to be misallocated to the
EPA agreements. The recipient originally accounted for all the labor costs in a non-Federal
direct labor account. On a monthly basis, the time devoted to each EPA agreement was
reclassified and charged to the EPA agreement(s). Lobbying activities were also estimated
monthly and reclassified to a direct lobbying account. Consequently, any time not charged to the
EPA agreements or lobbying, remained in the accounting system as a direct labor costs and were
not allocated to EPA either directly or indirectly. The recipient agreed with the finding and has
implement new time keeping procedures to require employees to account for all work activities
for which the employee is compensated. Accordingly, we have no recommendation for this
finding.




                                                  15

                                                                                    Appendix A


                           Scope and Methodology
We performed our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the “Office of Inspector General Project Management Handbook,”
dated January 14, 2005.

We conducted this examination to express an opinion on the reported outlays, and determine
whether the recipient complied with all applicable laws and regulations, as well as any special
requirements under the agreement. We conducted our field work from April 14, 2005, through
April 29, 2005.

In conducting our examination, we performed the following procedures:

   •	 We interviewed EPA personnel and reviewed grant and project files to obtain background
      information on the State and the agreement.

   •	 We interviewed recipient personnel to understand the accounting system and the 

      applicable internal controls as they relate to the reported outlays. 


   •	 We reviewed the most recent single audit report to identify issues which may impact our
      examination.

   •	 We reviewed the recipient’s internal controls specifically related to our objectives.

   •	 We performed tests of the internal controls to determine whether they were in place and
      operating effectively.

   •	 We examined the reported outlays on a test basis to determine whether the outlays were
      adequately supported and eligible for reimbursement under the terms and conditions of
      the agreements and Federal regulations and cost principles.

We verified that the recipient performed all tasks and provided all deliverables required under
the agreement.




                                                16

                                                                              Appendix B

           Recipient Response and OIG Comments

                                  August 22, 2005

                                                            By Electronic and Overnight Mail

Richard Valliere
EPA-OIG
One Congress Street
Boston, MA 02414-2023

      Re: Draft Attestation Report

Dear Mr. Valliere:

       The Natural Resources Defense Council, Inc. ("NRDC") provides these
comments on the Draft Attestation Report dated July 22, 2005 ("Audit Report"),
prepared by the EPA Office of Inspector General ("OIG"). The Audit Report considers
reported outlays by NRDC pursuant to EPA Cooperative Agreements CX82546101
("Grant 1"), CX82675101 ("Grant 2"), and XA83033101 ("Grant 3").

       To facilitate our review of and response to the Audit Report, NRDC retained an
independent auditing firm, O'Connor & Drew (the "Independent Auditor"). We granted
the Independent Auditor full access to NRDC records and employees, and asked it to
examine the OIG findings. A description of the firm and its qualifications is appended as
Attachment 1. The report the Independent Auditor provided to us is appended as
Attachment 2. Some of the comments in this letter are based on the Independent
Auditor's advice; others are based on NRDC's own review of its relevant records and
practices.

      OIG Comment – The recipient’s Independent Auditor did not conduct an audit or
      an examination in accordance with the standards established by the American
      Institute of Certified Public Accountants. The Independent Auditor was engaged
      to assist the recipient with responding to the draft report.

Summary of Comments

        NRDC has produced all deliverables and performed excellent work under the
audited grants. OIG found some good faith deficiencies in our procedures relating to
effort reports, indirect costs, and contracting. We have corrected each of these errors.
There is no evidence that NRDC drew down federal grant funds for any impermissible
purpose.


                                           17

         OIG Comment – We did not have any findings related to work performed or
         deliverables furnished under the agreements or that the recipient drew down
         funds for any impermissible purpose.

        To the contrary, as the Independent Auditor confirmed: "NRDC's accounting
system ensures that only time spent on a federal grant is charged to that grant. The
system also precludes any unallowable cost, such as lobbying, from being charged . . .
to a federal grant." Attachment 2 at 3.

         OIG Comment – The recipient’s Independent Auditor also observed that the
         recipient’s “…effort Reporting for Federal Grants and Lobbying timesheets do not
         account for the total activity for an employee. Examples of the type of activities
         missing are sick, vacation, personal, unpaid time off, and other time charged to
         NRDC work.”

       We do not believe there is a reasoned basis to disallow any labor-related outlays.
Our recent back-calculations of fringe benefits and indirect cost rates indicate that some
adjustments in amounts we billed for those items may be appropriate. We look forward
to discussing directly with EPA those adjustments, which we believe will be in the range
of $70,000 for the eight-year audit period.

         OIG Comment – We questioned the labor-related outlays (fringe benefits and
         indirect costs) under agreements CX82546101 and CX82675101 because at the
         time of our audit field work, the recipient did not prepare any final indirect costs
         rate proposals (including indirect fringe benefits) for EPA to negotiate. Without
         the approved rates, we had no basis to accept the reported outlays.

         Similarly, we questioned the labor-related outlays (fringe benefits and indirect
         costs) under agreements XA83033101 because the recipient did not prepare
         final indirect costs rate proposals (including indirect fringes benefits) for EPA to
         negotiate. Subsequent to issuance of the draft report, the United States
         Department of Interior, National Business Center (DOI) acting on behalf of EPA,
         negotiated the recipient’s final indirect rates3 for fiscal years 2003 and 2004.

       Finally, while NRDC entered into sole-source contracts for certain work, we fully
disclosed to EPA our intentions and actions, and procured top-level services at below-
market cost. Thus, we see no reason to disallow contracting costs.

         OIG Comment – Whether or not the recipient fully disclosed its intention and
         actions to EPA, the recipient was still required to follow the procurement
         procedures in Title 40 CFR Part 30, and the cost principles in OMB Circular A
         122. To be allowable under a grant award, the provisions of OMB Circular A
         122, Attachment A, paragraph A.2. provides that costs must (1) conform to any
         limitation or exclusions set forth in these principles or in the award as to types or

3
  The recipient did not submit its indirect fringe benefit rates for negotiation. Therefore, the negotiated rates exclude
the recipient’s fringe benefits.


                                                           18

      amount of cost items, and (2) be adequately documented. The recipient
      procurement for services did not comply with the grant regulations at Title 40
      CFR Part 30. Accordingly, the outlays are not allowable.

Background Facts

       EPA awarded Grant 1 to stimulate stormwater education. The grant covered the
period December 15, 1996 through October 31, 2001, and totaled $857,112 in EPA
funds. EPA awarded Grants 2 and 3 to encourage the development and marketing of
energy efficient products. These grants ran consecutively from September 1, 1998
through December 31, 2005, and committed EPA funds in the amounts of $1,204,362
(Grant 2) and $1,198,993 (Grant 3).

       EPA has been extremely satisfied with NRDC's work under all three grants. The
OIG auditors themselves state: "We verified that the recipient [NRDC] performed all
tasks and provided all deliverables required under the agreement[s]." Audit Report at
15.

        Indeed, EPA Region 2 presented NRDC with an Environmental Quality Award for
our stormwater education work under Grant 1 (for producing and disseminating a report
on pollution prevention practices of the 78 municipal governments bordering Long
Island Sound). A description of other work we performed under Grant 1, including our
reports analyzing and publicizing nationwide data on beach closings and advisories
resulting from stormwater
and other pollution sources, and our research, analysis, and dissemination of
information about successful stormwater management techniques employed across the
United States, is described in Attachment 3.

        Our energy-efficiency market transformation work (Grants 2 and 3) has been
equally effective. Between 1998 and 2004, NRDC's accomplishments under the grants
include: conducting groundbreaking research on the energy usage of consumer and
office electronics products such as cell phones and computers; leading a national effort
to reduce energy use of new refrigerated beverage vending machines by up to 50
percent; creating a rigorous national quality assurance program for efficient lighting,
which is directly responsible for the removal of several poor performing models from the
marketplace; and establishing an industry-wide labeling and rating system for cool
roofing materials, which greatly reduce buildings' air conditioning demands and improve
local air quality. A brief summary of achievements related to Grants 2 and 3 is included
in Attachment 4, along with a February 2004 Wall Street Journal article describing an
innovative, grant-related partnership between Intel and NRDC.

      OIG Comment – The recipient’s performance and accomplishments under the
      agreements, and whether EPA’s was satisfied with the work performed, has no
      bearing on the findings in the report. In completing the work under the
      agreements, the recipient was required to follow all the applicable federal rules
      and regulations identified in the cooperative agreements. Thus, any failure on


                                           19

      the recipient’s part to follow the applicable rules and regulations subjects the
      recipient to the disallowance of costs.

NRDC Comments on Audit Findings and Recommendations

       OIG examined NRDC records to determine whether reported outlays under the
three grants in question "fairly present, in all material respects, the allowable costs
incurred," and whether NRDC managed the grants "in accordance with applicable
requirements." Audit Report at "At a Glance" page. OIG found deficiencies in NRDC
records relating to (A) effort reports, (B) indirect costs and fringe benefits, and (C)
contracting costs. We address these in order below.

      A. Effort Reports

             1. OIG Findings

       OIG found that employee monthly effort reports used to allocate salary costs to
the grants "did not account for the employees' total activities" as required by applicable
regulations. Audit Report at 5. OMB Circular A-122 requires that employee activity
reports account for all NRDC-compensated activity, not simply activity related to the
EPA grants. OIG found that it could not "determine if the labor costs were properly
allocated to the EPA grant(s)," and thus questioned reported outlays of $194,837 (Grant
1), $375,662 (Grant 2), and $313,700 (Grant 3), or a total of $884,199. Id. at 6, 7, 11,
13.

             2. NRDC Comments

       We now understand that 40 C.F.R. § 30.27 and OMB Circular A-122 require
NRDC employees charging time to a federal grant to record time for all work for which
NRDC compensates them. Before the OIG examination of our records, we were not
aware of this requirement, and required employees working on the grants to record only
the percentage of total work time they spent on grant-related matters. This was an error
on our part.

       We have fully corrected the error. As of February 2005, we have required all
NRDC employees working on any federal grant to record monthly all work activities for
which NRDC compensates them. See Attachment 5 (revised NRDC effort report form).
At our request, the Independent Auditor reviewed our new timesheets and verified their
compliance with applicable federal regulations. Attachment 2 at 3. We are
implementing the few suggestions the Independent Auditor made for further
improvements in these records. Id.

      OIG Comment – It appears that the new procedures, if corrected to include
      lobbying time, as recommended by the recipient’s Independent Auditor, will
      comply with the procedures in OMB Circular A-122. However, to clarify a point,
      we would like to mention that OMB Circular A-122, Attachment B, subparagraph


                                            20

       7.m.(2) also requires labor activity reports for employees whose work involves
       two or more functions or activities if a distribution of their compensation between
       such functions or activities is needed in the determination of the organization’s
       indirect cost rate(s). Thus, indirect employees, officers included, who distribute
       their time to other functions such as fund raising, lobbying, membership activities,
       or other direct functions such as time charges to other affiliated organizations,
       must maintain labor activity report. Otherwise the labor costs will have to be
       treated as unallowable direct costs.

         While we are grateful to OIG for illuminating a limitation in our recordkeeping, we
find it difficult to understand its questioning of more than $880,000 in reported outlays
for grant-related labor. NRDC based salary charges to the EPA grants on after-the-fact
determinations of the actual activities of each employee, expressed as a percentage of
the employee's whole NRDC work effort each month. This is, in effect, what OMB
Circular A-122 requires. There is no evidence, either cited in the Audit Report or of
which we are aware, that NRDC's actual allocation of human effort to any of the three
grants was in any way inaccurate or problematic. To the contrary, the work NRDC
produced under each of the grants clearly required the degree of effort our employees
expended and reported.

       Additional factors undermine OIG's questioning of the reported outlays. On
Grants 2 and 3, NRDC's principal program person spent 93 percent or more of his work
time on grant-related matters. As a result, the timesheet deficiency barely applies to
him, because there was virtually no non-grant-related effort for him to report. For the
two grants combined, this accounts for $451,659 in salary outlays, or nearly two-thirds
the salary outlays ($689,362) OIG questioned under these grants. See Attachment 6.

       NRDC's limited recordkeeping was a good faith error. During each year of the
grants in question, NRDC effort reports were reviewed in an A-133 audit by a reputable
independent auditor, PricewaterhouseCoopers. Although this annual review was
geared specifically to the accuracy, completeness, and compliance of our accounting
under government contracts, our auditor did not find the error.

        Neither did EPA itself. On March 10, 1999, an EPA grant specialist visited
NRDC's San Francisco Office (out of which the market transformation grants are run).
The purpose of the site visit was to monitor and review the "administrative and financial
aspects of" the EPA grants. See Attachment 7 (May 3, 1999 EPA letter commenting on
site visit). After completing their review, the EPA site monitors found that NRDC
"appears [to be] complying with the terms and conditions of the awards." Id. To the
degree there was any subsequent EPA Desk Review of NRDC's practices and
procedures, the agency never informed us of any recordkeeping (or other) deficiency.
We presume EPA conducted its review according to the agency's elaborate "On-Site
Monitoring and Evaluation Instrument," Attachment 8, a copy of which it provided to us
in advance of the March 1999 site visit. The purpose of the Instrument is to assist EPA
in "effective monitoring of" grant recipients so as to "avoid or reduce negative audit
findings, waste or abuse of federal funds." Id. at 1.



                                             21

       NRDC requires all employees to document lobbying activities and vacation and
sick days. The lobbying records provide the date, hours, subject matter, and expenses
associated with lobbying, and are given a separate and specific code. This procedure
provides confidence that no NRDC employee charged lobbying or any other
unallowable time against a government grant. With regard to this possibility, suggested
by OIG, the Independent Auditor found:

              The effort reports used by NRDC meet the criteria contained in OMB
              Circular A-122 with the exception of accounting for 100 percent of an
              employee's activity. However, NRDC's accounting system ensures that
              only time spent on a federal grant is charged to that grant. The system
              also precludes any unallowable cost, such as lobbying, from being
              charged, directly or indirectly, to a federal grant.

Attachment 2 at 3 (emphasis supplied).

       In sum: We acknowledge a deficiency in our effort reports; we have corrected
the inadvertent error; despite the error, NRDC had controls in place ensuring that only
allowable activity was charged to EPA grants; and we believe there is no reason to
disallow any of the questioned labor-related outlays.

       OIG Comment – The recipient’s personnel activity reports did not fully comply
       with the provisions of OMB Circular A-122, Attachment B, subparagraph 7.m
       (see page 15 for further details). However, we have reevaluated out position
       related to questioning the labor outlays because of this noncompliance and have
       reinstated the questioned outlays.

       B. Indirect Costs

              1. OIG Findings

       OIG found that NRDC (a) failed to compute fringe benefits as an indirect cost,
Audit Report at 8; (b) may have recovered vacation costs twice (through both salaries
and fringe benefit rates), id.; (c) did not prepare or submit indirect cost rate proposals to
EPA, id. at 5; and (d) did not require executive officers to prepare monthly activity
reports to support the distribution of their salaries to all activities, including lobbying and
fundraising, id. at 13. For these reasons, for the three grants combined, OIG
questioned $190,941 in fringe benefit costs, and an additional $539,618 in indirect
costs. Id. at 6, 11, 13.




                                              22

              2. NRDC Comments

                     a. Fringe Benefits

        NRDC considered fringe benefits to be direct, not indirect, costs. This appears to
be proper under the governing regulations. The Independent Auditor notes that the
citation on which OIG relies for its finding does not refer to fringe benefit rates, but only
to indirect cost rates. OMB Circular A-122, Attachment B, section 7(g)(2), provides that
fringe benefits can be treated either as direct or indirect costs. See Attachment 2 at 4.
The Independent Auditor further found that NRDC's method of developing fringe benefit
rates annually and applying such rates to the salaries of grant-related personnel is
"common among federal grant and cooperative agreement recipients." Id.

       NRDC has now developed actual (rather than estimated) fringe benefit rates for
each fiscal year from 1997 through 2004. In some years the rate billed to the
government exceeded the actual rate; in other years the rate billed was less than the
actual. See Attachment 9 (NRDC calculations); see also Attachment 2 at 4. We will
discuss these calculations with EPA, and make any appropriate adjustment. We
believe that any such adjustment will be within the range of $10,000 over the eight-year
period.

       OIG Comment - The recipient is correct that OMB Circular A-122, Attachment B,
       section 7(g)(2), provides that fringe benefits may be treated as either a direct or
       indirect costs. The recipient has chosen to treat certain fringe benefits such as
       accrued vacation, health insurance, pension, and life insurance as indirect costs.
       Consequently, the recipient was required to submit new indirect cost rate
       proposals to the cognizant agency within 6 months after the close of each fiscal
       year in accordance with OMB Circular A-122. We can not accept the reported
       outlays for indirect fringe benefit costs until the recipient submits, and EPA
       negotiates, final rates for all fiscal years reported under the agreements.
       Therefore, we recommend that the recipient submit its fringe benefit rates to EPA
       for negotiation as required by the Circular.

                     b. Vacation Costs

       Regarding vacation time, the Independent Auditor determined that NRDC did not
over-recover costs. Attachment 2 at 4.

       OIG Comment - The recipient’s Independent Auditor indicated (see Attachment
       2 at 5) that the recipient informed them that it will eliminate accrued vacation
       expenses in calculating actual fringe benefit rates. The elimination of the
       accrued vacation time from the actual rates will remedy the potential over-
       recover of costs.




                                             23

                     c. Indirect Cost Rates

       NRDC submitted to EPA an initial indirect cost rate proposal in July 1995.
Attachment 10. In April 1996, EPA distributed a policy statement relating to indirect cost
rates. Attachment 11. The policy provided that grant recipients were not required to
submit a proposal to EPA if indirect costs were "35% or less of total project costs and
represent less than $200,000." Id. at 3.

Grants 1 and 3 fit within this category. In the Audit Report, OIG states that the EPA
policy was rescinded, but does not state when. Audit Report at 9. In reliance on the
policy, NRDC did not submit additional indirect cost rate proposals to EPA.

      NRDC did, however, diligently seek further guidance from the agency.
We wrote to EPA on September 8, 1997, seeking confirmation that no further cost rate
proposal was required. Attachment 12. We called EPA on September 16, 1997, for the
same purpose. Attachment 13 (handwritten notes summarizing call). We called EPA
again on January 13, 1998, and followed up with a letter dated January 14, 1998.
Attachment 14.

      On March 10, 1999, EPA conducted its site visit to our San Francisco office, and,
as noted above, found no deficiencies in our administrative or financial practices or
procedures, including the calculation of indirect costs. Attachment 7.

       On July 15, 1999, by telephone, an EPA grant specialist advised us that the
22.29% indirect cost rate we had proposed in 1995 still applied. Attachment 15 (notes
summarizing call). EPA's notices of award for Grant 3, first issued in 2002, included an
indirect cost rate of 22.29%. Attachment 16.

       On August 4, 2004, we prepared an indirect cost rate proposal based on fiscal
year 2003 costs, and submitted it to EPA as part of the application package for renewal
of the market transformation grant. On March 15 of this year, NRDC submitted the
same proposal, presented in the format specified by EPA. Attachment 17. EPA is now
considering our proposed indirect cost rates for 2003 and 2004.

        We do not believe the failure to submit annual indirect cost rate proposals to EPA
should cause OIG to question, or EPA to disallow, any indirect costs under the grants.
As the Independent Auditor found: "NRDC followed the guidance provided by EPA
officials . . . and followed the rules that were in effect at the time." Attachment 2 at 10.
And we repeatedly sought confirmation that we were, in fact, in compliance.
        We recognize and concede a good faith error regarding indirect costs: We
should have updated our indirect cost rates each year internally, kept them in our files,
and adjusted our billings to EPA accordingly. In addition, we should have submitted to
EPA a proposed cost rate each year during the pendency of Grant 2. We have now
performed the requisite calculations. Attachment 18. The rates indicate that NRDC
may have over-recovered indirect costs of approximately $50,000 for the eight-year
period covered by the OIG audit. We will pursue this matter directly with EPA, and



                                              24

make any appropriate adjustment. But for this amount, we see no basis for disallowing
any indirect cost charged to the grants.

      OIG Comment – EPA’s policy to allow the recipient to retain the indirect cost rate
      proposal(s) on file did not comply OMB Circular A-122, Attachment A,
      subparagraph E. 2. EPA cannot deviate from the requirements of the Circular
      unless a waiver is granted by OMB. EPA rescinded its policy after we informed
      EPA that the policy did not comply with the Circular.

      The recipient indicated that it prepared and submitted an initial indirect cost rate
      proposal to EPA in July 1995. After the recipient establishes an initial indirect
      cost rate, the Circular required the recipient to submit new indirect cost proposals
      to the cognizant agency within six months after the close of each fiscal year. The
      recipient did not prepare, or at least did not provide us with, any final indirect cost
      rate proposals for FYs 1996 through 2002. Accordingly, we have no basis to
      accept any of the indirect costs for this period.

      As part of the response to this report, the recipient did provide us with the
      approved indirect rates for FYs 2003 and 2004. The rates were approved on
      August 16, 2005, subsequent to the issuance of the draft report, by the United
      States Department of Interior, National Business Center (DOI), acting on behalf
      of EPA. Because of our concerns related to labor documentation problems
      identified in this report, we contacted DOI to discuss the negotiation of the final
      rates. DOI told us that it had no knowledge of our audit or of any of the findings
      identified in the report. Accordingly, we recommend that the approved rates be
      rescinded, and DOI consider the findings in this report before negotiating any
      new rates.

      We cannot accept the reported outlays for any of the indirect costs until the
      recipient resubmits its indirect cost rate proposals and excludes all executive
      salaries from the indirect expense pool and add the salaries to the allocation
      base (see our discussion below on executive salaries).

                    d. Allocation of Executive Salaries

       OIG notes correctly that NRDC "did not require its executive officers to prepare
monthly activity reports to support the distribution of their salaries to all activities,
including unallowable activities such as lobbying and fundraising." Audit Report at 13.
However, OIG's further statement that "controls were not sufficient to ensure that labor
was allocated equitably, and unallowable activity, such as lobbying, was excluded from
EPA grants," id., is, in our view, both unsupported and incorrect.

       NRDC's executive officers keep track of certain specific activities like lobbying.
In addition, on an annual basis, NRDC allocates executive salaries to program,
administrative, and fundraising activities. The Independent Auditor found that "NRDC's
accounting system precludes any unallowable costs from being charged to a Federal



                                            25

grant. All lobbying and fundraising costs, including the portion of executive salaries, are
removed from the indirect cost pool." Attachment 2 at 10. Thus, any unallowable effort
by NRDC executives is excluded from the indirect cost calculation. In addition, we note
that the amount of executive salary charged through indirect costs is minimal
(calculated by the Independent Auditor as 0.3%, see id.). No NRDC executive charges
any direct time to any of the federal grants.

       Accordingly, we see no reasoned basis to question whether unallowable
executive activity, such as lobbying or fundraising, was charged to any of the audited
grants. Notwithstanding this, in order to simplify accounting going forward, NRDC will
eliminate from its indirect cost rate calculation all salary for any executive allocating time
to more than one activity.

       OIG Comment – By the recipient’s own admission, the executives did not
       prepare monthly activity reports to support the distribution of executive salaries to
       the indirect cost pool or direct cost activities such as lobbying, fundraising,
       membership activities, or program administration. The provisions of OMB
       Circular A-122, Attachment B, subparagraph 7.m(2) requires labor activity reports
       for employees whose work involves two or more functions or activities if a
       distribution of their compensation between such functions or activities is needed
       in the determination of the organization’s indirect cost rate(s). Without adequate
       supporting documentation, we have no way to verify that the executive salaries
       which were included as indirect costs were reasonable, allowable, and allocable.
       Accordingly, we recommend that all executive salaries be excluded from the
       indirect cost pool for all fiscal years and added to the indirect cost allocation
       base.

       C. Contracting Costs

              1. OIG Findings

       OIG questioned outlays of $291,016 attributable to nonsalaried employees, Audit
Report at 8, based on the failure to keep full time records (see section A above). In
addition, OIG questioned outlays of $473,995 (Grant 2) and $131,835 (Grant 3)
because NRDC "procured sole-source consulting services without justification or
performing a cost or pricing review." Id. at 5, 11, 13.

              2. NRDC Comments

                     a. Nonsalaried Personnel

      Some people who performed grant-related work were short-term or part-time
personnel. NRDC charged their time as consultants, because NRDC itself did not treat
them as full-time employees (with full benefits). Since these people only received
NRDC pay for the hours they worked on the grant, their timesheets reflect all their




                                             26

NRDC-compensable activity. According to the Independent Auditor, these timesheets
meet all applicable federal criteria. Attachment 2 at 6.

       OIG Comment – The recipient’s personnel activity reports did not fully comply
       with the provisions of OMB Circular A-122, Attachment B, subparagraph 7.m.
       See page 15 for our report related to the improvements needed in the personnel
       activity reports. However, we have reevaluated our position related to
       questioning the labor outlays because of this technical noncompliance and have
       reinstated the questioned outlays.

       OIG also questioned fringe benefits related to nonsalaried labor, in the amount of
$28,697. Audit Report at 8. NRDC is in the process of recalculating these fringe benefit
figures, as we have done for salaried employees, to account for any difference between
estimated and actual expenses. We will present our calculations to EPA, and make any
appropriate adjustment.

       OIG Comment – See our first comment on page 23 related to fringe benefits.

       Finally in this regard, OIG questioned $74,008 because NRDC did not provide
labor activity reports to support the outlays. Audit Report at 9. These are costs
associated with a number of nonsalaried employees and vendors, and involve small
increments of time. We have gathered available documentation supporting these
charges, and believe the questioned outlays are appropriate. Attachment 19.

       OIG Comment – Although the recipient states it has gathered documentation
       supporting the questioned outlays, it did not provided any of the documentation
       for review. Accordingly, the outlays remain questioned.

                     b. Sole-Source Contractor

      The major financial item in the contractor category relates to the work of Ecos
Consulting on the market transformation grants. In performing its appointed tasks under
Grant 2, NRDC awarded three contracts to Ecos, valued at $473,995, without
competitive bidding. Audit Report at 11. Under Grant 3, NRDC awarded a
noncompetitive contract to Ecos worth $131,835. Id. at 13.

        While the contracts with Ecos were not subject to competitive bidding, OIG fails
to recognize, or give sufficient weight to, various pertinent facts. Ecos had been a sole-
source consultant since the inception of the market transformation grants. EPA
program staff were fully aware of NRDC's actions with regard to Ecos, because both the
intent to retain Ecos and specific budget lines to cover its work were set forth explicitly
in NRDC's grant proposals. Attachment 20.

       Despite EPA's knowledge of NRDC's intentions and actions, the agency did not
notify NRDC of the need for competitive bidding until 2002. Since that time, NRDC has
bid out contract work competitively. The process includes developing a qualified



                                            27

bidders list, preparing a written request for proposals ("RFP"), sending the RFP to the
bidders list, reviewing written bids, scoring bids, identifying the winning bidder, and
negotiating and executing a contract with the victorious firm.

        We are aware of no evidence that Ecos overcharged in any way for its services.
Indeed, Ecos substantially outscored and provided a more cost competitive proposal
than its competitor during the 2003 process we instituted. See Attachment 2 at 7; see
also Attachment 21. Our experts in energy-efficiency market transformation, who have
earned the trust of EPA program staff, were fully aware of the available expertise and
going prices in the relevant market from 1998-2003, and believe that Ecos performed
excellent work at reasonable rates throughout the period of the audited grants. As of
late 2001, for example, billing rates in excess of $100 or $150 (for senior personnel) per
hour were common in the industry, but NRDC paid far less for Ecos's first-rate services.
NRDC (and federal taxpayers) benefitted from Ecos's two-tier pricing structure, which
provided reduced rates for nonprofit groups like NRDC. See Attachment 21.

       The record reveals that NRDC adequately documented its reasons for selecting
Ecos. Indeed, NRDC's written grant proposals to EPA contained sufficient justification
for NRDC's decision. Given this, and the fact that Ecos performed high-quality,
economical work under the grants, we see no reason to disallow any of the questioned
outlays.

       OIG's Comment - While EPA may have been aware of the recipient's action to
       procure a specific consulting firm, it did not relieve the recipient of its
       responsibility to adequately justify the lack of a non-competitive procurement or
       perform the required cost analysis. The recipient has not provided adequate
       documentation to justify the sole source procurements or documentation to
       support that a cost analysis was conducted. Accordingly, the outlays remain
       questioned.

Concluding Comments

       We found the OIG audit to be useful in highlighting a few deficiencies in our
grant-related recordkeeping. However, but for the updated fringe benefit and indirect
cost rate calculations discussed above, we respectfully object to any suggestion in the
Audit Report that EPA disallow questioned outlays. Based on the Audit Report, the
Independent Auditor's examination, and our own further review of our records and
procedures, we do not see any basis in the evidence or in common sense to do so.

       Where, as here, there are good faith errors in recordkeeping, all corrected, no
evidence of harm or wrongdoing, and ample affirmative evidence supporting the
legitimacy, economy, and quality of a recipient's effort under federal grants, we believe it
would be arbitrary, punitive, and unjust to disallow costs.




                                            28

       We look forward to resolving all outstanding issues with EPA. If we can provide
any further information, or if OIG would like to meet with us to explore further any
relevant issue, please let us know.

        In whatever form and to whomever OIG disseminates its final report, including
without limitation on the EPA Web site, we request that you include,
in toto, this response letter, with all attachments.

      Thank you for the opportunity to comment.



                                  Sincerely,

                                  /s/ Judith A. Keefer

                                  Judith A. Keefer
                                  Director of Finance and Operations


Attachments




                                           29

                                                                            Appendix C

                                       Distribution
EPA Headquarters

Office of the Administrator
Director, Grants Administration Division (Action Official)
       (responsible for report distribution to recipient)
Director, Office of Grants and Debarment
Audit Followup Coordinator, Office of Grants and Debarment
Assistant Administrator for Water
Assistant Administrator for Air and Radiation
Agency Followup Official (the CFO)
Agency Audit Followup Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Inspector General




                                             30

